No. 19-91

In the Supreme Court of the United States

Michele Buckner, Warden,
Petitioner,

Vv.

Robert W. Allen,
Respondent.

On Petition for.a Writ of Certiorari
to the Missouri Court of Appeals

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief in
Opposition in the above-entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in Century Schoolbook 12 point for the
text and 10 point for the footnotes, and that the Brief in Opposition contains 1,398
words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 31, 2019.

Stuart Banner

UCLA School of Law
405 Hilgard Ave.

Los Angeles, CA 90095
(310) 206-8506
banner@law.ucla.edu
Counsel for Respondent
